                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: Al1080055                                                                         Page 1 of 1



                                                                                 1
                 NSF OIG received an allegation ofplagiarism in two proposals by aPL 2 We contacted the PI
         about the alleged plagiarism, and he acknowledged that the copied text was not appropriately cited,
         although he noted that the sources were cited throughout the proposals and in the references. In this
         case, with citations to the source documents frequently near the small amount of copied text, we
         determined the PI's act does not rise to the level ofresearch misconduct. Thus, we sent the PI a letter
         reminding him to carefully and fully cite all source material. Accordingly, this case is closed.




NSF OIG Fonn 2 (11/02)
